      DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                           Washington, D.C. 20201




October 28, 2009

TO:            Carmen Nazario
               Assistant Secretary
               Administration for Children and Families


FROM:          /Joseph E. Vengrin/
               Deputy Inspector General for Audit Services


SUBJECT:       Administration for Children and Families Resolution of Audit Recommendations
               (A-07-09-03118)


The attached final report provides the results of our review of the Administration for Children
and Families (ACF) resolution of audit recommendations.

ACF is responsible for resolving Federal and non-Federal audit report recommendations related
to its activities, grantees, and contractors within 6 months after formal receipt of the reports. The
Office of Inspector General (OIG) prepares and forwards to ACF monthly stewardship reports
that show the status of these reported audit recommendations. Our review covered the audit
recommendations identified in stewardship reports for fiscal years (FY) 2006 through 2008.

Our objectives were to determine whether ACF had (1) resolved audit recommendations in a
timely manner during FYs 2006 through 2008 and (2) resolved all audit recommendations that
were due for audit resolution by September 30, 2008.

ACF resolved 10,979 of the 14,180 audit recommendations that were outstanding during
FYs 2006 through 2008. However, it did not resolve 7,531 of the 10,979 recommendations
within the required 6-month period. In addition, as of September 30, 2008, ACF had not
resolved 2,086 audit recommendations that were past due for resolution. The dollar amounts
associated with these recommendations totaled $94.6 million.

Because ACF did not resolve all audit recommendations in a timely manner, it did not have
reasonable assurance that it was exercising proper stewardship over Federal dollars. The prompt
resolution of audit recommendations will help ensure that Federal funds, including those
authorized by the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5, are
effectively and efficiently used to carry out the activities for which they were authorized.
Page 2 – Carmen Nazario


We recommend that ACF (1) resolve all audit recommendations within the required 6-month
audit resolution period and (2) resolve the 2,086 outstanding audit recommendations that were
past due as of September 30, 2008.

In written comments on our draft report, ACF did not directly address our recommendations.
ACF disagreed with the number of audits listed in the stewardship report as of September 30,
2008, but agreed that monetary recommendations that were past due for resolution totaled the
$94.6 million listed in that stewardship report. ACF also provided updates on its resolution of
recommendations and stated that 2,107 recommendations were unresolved as of June 30, 2009.

We maintain that the stewardship report as of September 30, 2008, accurately reflected the status
of audit recommendations, including those for which OIG had accepted ACF’s audit clearance
documents. We agree that ACF had 2,107 unresolved audit recommendations as of June 30,
2009—after our audit period—but note that 976 of those recommendations were past due for
resolution. Moreover, ACF’s submission of required documentation after our audit period does
not negate the validity of our findings and recommendations as of September 30, 2008.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate, within
60 days. If you have any questions or comments about this report, please do not hesitate to call
me, or your staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal
Activities, and Information Technology Audits, at (202) 619-1175 or through email at
Lori.Pilcher@oig.hhs.gov. Please refer to report number A-07-09-03118 in all correspondence.


Attachment
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




 ADMINISTRATION FOR CHILDREN
  AND FAMILIES RESOLUTION OF
   AUDIT RECOMMENDATIONS




                       Daniel R. Levinson
                        Inspector General

                         October 2009
                         A-07-09-03118
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The Department of Health and Human Services (HHS), Administration for Children and
Families (ACF), is responsible for promoting the economic and social well-being of children,
families, and communities. ACF carries out this responsibility through internal activities and
through grants and contracts to State, county, city, and tribal governments, as well as public and
private local agencies. The fiscal year (FY) 2009 President’s budget request for ACF was
$45.6 billion.

Pursuant to Office of Management and Budget Circular A-50, section 8a(2), and other
authorities, ACF is also responsible for resolving Federal and non-Federal audit report
recommendations related to its activities, grantees, and contractors within 6 months after formal
receipt of the reports. The Office of Inspector General (OIG) prepares and forwards to ACF
monthly stewardship reports that show the status of these reported audit recommendations. Our
review covered 14,180 audit recommendations identified in stewardship reports for
FYs 2006 through 2008.

The American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5, enacted
February 17, 2009, provided additional funding in excess of $10 billion to ACF for FYs 2009–
2011 for grant programs, such as Temporary Assistance for Needy Families, Head Start, and the
Community Services Block Grant program. A major cornerstone of the Recovery Act is the
unprecedented transparency in expenditures and accountability for the increased funding.

OBJECTIVES

Our objectives were to determine whether ACF had (1) resolved audit recommendations in a
timely manner during FYs 2006 through 2008 and (2) resolved all audit recommendations that
were due for audit resolution by September 30, 2008.

SUMMARY OF FINDINGS

ACF resolved 10,979 of the 14,180 audit recommendations that were outstanding during
FYs 2006 through 2008. However, it did not resolve 7,531 of the 10,979 recommendations
within the required 6-month period. In addition, as of September 30, 2008, ACF had not
resolved 2,086 audit recommendations that were past due for resolution. The dollar amounts
associated with these recommendations totaled $94.6 million.

Because ACF did not resolve all audit recommendations in a timely manner, it did not have
reasonable assurance that it was exercising proper stewardship over Federal dollars. The prompt
resolution of audit recommendations will help ensure that Federal funds, including those
authorized by the Recovery Act, are effectively and efficiently used to carry out the activities for
which they were authorized.




                                                  i
RECOMMENDATIONS

We recommend that ACF:

      resolve all audit recommendations within the required 6-month audit resolution period
       and

      resolve the 2,086 outstanding audit recommendations that were past due as of
       September 30, 2008.

ADMINISTRATION FOR CHILDREN AND FAMILIES COMMENTS

In written comments on our draft report, ACF did not directly address our recommendations.
ACF disagreed with the number of audits listed in the stewardship report as of September 30,
2008, but agreed that monetary recommendations that were past due for resolution totaled the
$94.6 million listed in that stewardship report. ACF also provided updates on its resolution of
recommendations and stated that 2,107 recommendations were unresolved as of June 30, 2009.
ACF’s comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

We maintain that the stewardship report as of September 30, 2008, accurately reflected the status
of audit recommendations, including those for which OIG had accepted ACF’s audit clearance
documents. We agree that ACF had 2,107 unresolved audit recommendations as of June 30,
2009—after our audit period—but note that 976 of those recommendations were past due for
resolution. Moreover, ACF’s submission of required documentation after our audit period does
not negate the validity of our findings and recommendations as of September 30, 2008.




                                                ii
                                               TABLE OF CONTENTS

                                                                                                                                    Page

INTRODUCTION.......................................................................................................................1

       BACKGROUND .................................................................................................................1
           Federal Audits..........................................................................................................1
           Non-Federal Audits..................................................................................................1
           Audit Resolution ......................................................................................................2
           Stewardship Reports ................................................................................................2
           American Recovery and Reinvestment Act of 2009................................................3

       OBJECTIVES, SCOPE, AND METHODOLOGY.............................................................3
            Objectives ................................................................................................................3
            Scope........................................................................................................................3
            Methodology ............................................................................................................3

FINDINGS AND RECOMMENDATIONS .............................................................................4

       FEDERAL REQUIREMENTS............................................................................................4

       AUDIT RECOMMENDATIONS RESOLVED BUT NOT IN
        A TIMELY MANNER .....................................................................................................5

       AUDIT RECOMMENDATIONS NOT RESOLVED ........................................................5

       LACK OF REASONABLE ASSURANCE OF PROPER STEWARDSHIP OVER
        FEDERAL DOLLARS .....................................................................................................6

       RECOMMENDATIONS.....................................................................................................7

       ADMINISTRATION FOR CHILDREN AND FAMILIES COMMENTS ........................7

       OFFICE OF INSPECTOR GENERAL RESPONSE ..........................................................7

APPENDIX

       ADMINISTRATION FOR CHILDREN AND FAMILIES COMMENTS




                                                                 iii
                                                INTRODUCTION

BACKGROUND

The Department of Health and Human Services (HHS), Administration for Children and
Families (ACF), is responsible for promoting the economic and social well-being of children,
families, and communities. ACF carries out this responsibility through internal activities and
through grants and contracts to State, county, city, and tribal governments, as well as public and
private local agencies. The fiscal year (FY) 2009 President’s budget request for ACF was
$45.6 billion.

ACF is also responsible for resolving Federal and non-Federal audit report recommendations
related to its activities, grantees, and contractors within 6 months after formal receipt of the
reports. 1

Federal Audits

Pursuant to the Inspector General Act of 1978, 5 U.S.C. App., the Office of Inspector General
(OIG) conducts audits of internal ACF activities, as well as activities performed by ACF
grantees and contractors. These audits are intended to provide independent assessments of ACF
programs and operations and to help promote economy and efficiency. OIG uses its own
resources to conduct audits in accordance with generally accepted government auditing standards
and oversees audit work done by certified public accounting firms.

Non-Federal Audits

Office of Management and Budget (OMB) Circular A-133 requires that non-Federal entities that
expend $300,000 ($500,000 for FYs ending after December 31, 2003) or more in Federal awards
in a year have a single or program-specific audit conducted for that year pursuant to the
provisions of subpart B, §_____.200. 2 Commercial entities meeting the financial thresholds may
elect to have either an audit pursuant to the provisions of OMB Circular A-133 or a “financial-
related audit” as specified in 45 CFR § 74.26(d)(1)(i). Non-Federal audits are usually conducted
by certified public accounting firms.

OMB Circular A-133 states that the Federal awarding agency is responsible for issuing a
management decision within 6 months after formal receipt of the audit report for
recommendations that relate to its awards. A management decision comprises the evaluation of
audit recommendations and the proposed corrective action plan, as well as the issuance of a
written decision on what corrective action is necessary. OMB Circular A-133, subpart D,
§_____.405(a), states: “The management decision shall clearly state whether or not the audit
finding is sustained, the reasons for the decision, and the expected auditee action to repay

1
    Throughout this report, we use the term “recommendations” to refer to both audit findings and recommendations.
2
 Some State and local governments that are required by constitution or statute in effect on January 1, 1987, to be
audited less frequently than annually are permitted to undergo audits biennially. Nonprofit organizations also are
allowed to have biennial audits under certain conditions.


                                                           1
disallowed costs, make financial adjustments, or take other action. If the auditee has not
completed corrective action, a timetable for follow-up should be given.”

OIG’s National External Audit Review Center (NEAR) reviews single audit reports for
compliance with OMB Circular A-133 and for conformance with professional standards. NEAR
transmits each ACF-related report to the ACF Audit Liaison Office and to the regional ACF
offices. When appropriate, NEAR also issues audit alert memorandums to inform ACF of
significant audit recommendations. After resolving the recommendations, ACF issues a
management decision to the grantee or contractor and an audit clearance document to the OIG
audit resolution group.

Audit Resolution

In resolving Federal and non-Federal audit recommendations, ACF must comply with
OMB Circular A-50, section 8a(2), which requires “. . . prompt resolution and corrective actions
on audit recommendations. Resolution shall be made within a maximum of six months after
issuance of a final report or, in the case of audits performed by non-Federal auditors, six months
after receipt of the report by the Federal Government. Corrective action should proceed as
rapidly as possible.”

The HHS “Grants Administration Manual,” section 1-105, sets forth departmental policies and
procedures for resolving recommendations pertaining to grants, contracts, and cooperative
agreements. According to section 1-105-30(B)(1) of the manual, action officials must resolve
audit recommendations within 6 months of the end of the month in which OIG issued or released
the audit report. Resolution is normally deemed to occur when:

      action officials have reached a final decision on the amount of any monetary recovery;

      action officials have established a satisfactory plan of action, including time schedules, to
       correct all deficiencies; and

      OIG has cleared the report from its tracking system after receiving and accepting the
       audit clearance document(s) from action officials.

Stewardship Reports

The OIG audit resolution group prepares monthly stewardship reports on the status of audit
recommendations reported in Federal and non-Federal audits and forwards the stewardship
reports to the applicable HHS agency. We reviewed the “Outstanding Audits and Actions Taken
by Cognizance” stewardship reports for ACF. These reports identify all audit reports and
corresponding recommendations issued for the selected period and provide the action taken
(management’s decision) and the date of that action or indicate that no action has been taken.




                                                 2
American Recovery and Reinvestment Act of 2009

The American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5, enacted
February 17, 2009, provided additional funding in excess of $10 billion to ACF for FYs 2009–
2011 for grant programs. These programs included Temporary Assistance for Needy Families,
the Child Care and Development Block Grant, Early Head Start, Head Start, the Community
Services Block Grant, and the New Nonprofit Community-Based Organizations Initiative. A
major cornerstone of the Recovery Act is the unprecedented transparency in expenditures and
accountability for the increased funding.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether ACF had (1) resolved audit recommendations in a
timely manner during FYs 2006 through 2008 and (2) resolved all audit recommendations that
were due for audit resolution by September 30, 2008.

Scope

We determined the resolution of audit recommendations identified in the “Outstanding Audits
and Actions Taken by Cognizance” stewardship reports for FYs 2006 through 2008. These
stewardship reports identified 3,317 audit reports and 14,180 corresponding recommendations.

Our objectives did not require an understanding or assessment of ACF’s overall internal control
structure. We limited our review to gaining an understanding of controls over ACF’s audit
resolution process.

We performed our review from December 2008 to March 2009 and conducted fieldwork at
ACF’s office in the District of Columbia.

Methodology

To accomplish our objectives, we:

       reviewed applicable sections of OMB Circulars A-50 and A-133, the HHS “Grants
        Administration Manual,” and other Federal requirements;

       reviewed ACF policies and procedures for resolving audit recommendations;

       interviewed ACF staff and reviewed documentation provided by ACF officials;

       determined whether ACF had resolved in accordance with Federal requirements the
        14,180 audit recommendations identified in the FYs 2006 through 2008 stewardship
        reports;



                                               3
      reviewed working papers associated with previously issued OIG audits that tested the
       accuracy of information contained in the stewardship reports; and

      determined the dollar amounts associated with any unresolved recommendations that
       were beyond the required resolution period as of September 30, 2008.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                          FINDINGS AND RECOMMENDATIONS

ACF resolved 10,979 of the 14,180 audit recommendations that were outstanding during
FYs 2006 through 2008. However, it did not resolve 7,531 of the 10,979 recommendations
within the required 6-month period. In addition, as of September 30, 2008, ACF had not
resolved 2,086 audit recommendations that were past due for resolution. The dollar amounts
associated with these recommendations totaled $94.6 million.

Because ACF did not resolve all audit recommendations in a timely manner, it did not have
reasonable assurance that it was exercising proper stewardship over Federal dollars. The prompt
resolution of audit recommendations will help ensure that Federal funds, including those
authorized by the Recovery Act, are effectively and efficiently used to carry out the activities for
which they were authorized.

FEDERAL REQUIREMENTS

OMB Circular A-50, section 8a(2), requires “. . . prompt resolution and corrective actions on
audit recommendations. Resolution shall be made within a maximum of six months after
issuance of a final report or, in the case of audits performed by non-Federal auditors, six months
after receipt of the report by the Federal Government. Corrective action should proceed as
rapidly as possible.”

OMB Circular A-133, §_____.405(d), states: “The entity responsible for making the
management decision shall do so within six months of receipt of the [non-Federal] audit report.
Corrective action should be initiated within six months after receipt of the audit report and
proceed as rapidly as possible.”

According to the HHS “Grants Administration Manual,” section 1-105-30(B)(1), action officials
must resolve audit recommendations pertaining to grants, contracts, and cooperative agreements
within 6 months of the end of the month in which OIG issued or released the audit report.




                                                 4
AUDIT RECOMMENDATIONS RESOLVED BUT
NOT IN A TIMELY MANNER

Of the 10,979 audit recommendations that ACF resolved during FYs 2006 through 2008,
7,531 (68.6 percent) were not resolved within the required resolution period. Table 1 below
shows the timeframes for resolving these recommendations.

                  Table 1: Timeliness of Audit Recommendations Resolved
                                in FYs 2006 Through 2008
                                                      Number of
                     Timeframe To Resolve                                 Percent of
                                                       Resolved
                       Recommendation                                       Total
                                                   Recommendations

          Within 6-month resolution period               3,448               31.4%
          Beyond 6-month resolution period
            1 year or less                               3,153               28.7%
            1+ year to 2 years                           1,467               13.4%
            2+ years to 3 years                            694                6.3%
            3+ years to 4 years                            640                5.8%
            4+ years to 5 years                            500                4.6%
            5+ years                                     1,077                9.8%
          Subtotal                                       7,531

             Total                                      10,979               100%


AUDIT RECOMMENDATIONS NOT RESOLVED

As of September 30, 2008, ACF had not resolved 2,086 audit recommendations that were past
due for resolution. The dollar amounts associated with these recommendations totaled
$94.6 million. Table 2 on the next page presents information on the timeframes for these
unresolved recommendations. Table 3 presents additional information on the dollar amounts
associated with these recommendations, categorized by recommended action.




                                               5
             Table 2: Unresolved Audit Recommendations Past Due for Resolution
                                  as of September 30, 2008
                                                                                 Dollar         Percent of
                                                                                Amounts          Dollar
                                                                 Average Days    Beyond         Amounts
                                                                   Beyond       Required         Beyond
    Timeframe                                                     Required     Resolution       Required
 Beyond Required         Number of            Percent of Total    Resolution      Date          Resolution
  Resolution Date     Recommendations        Recommendations         Date     (in millions)       Date

1 year or less                1,024                    49.1%            218.0       $76.9         81.2%
1+ year to 2 years              427                    20.5%            547.2        15.4         16.4%
2+ years to 3 years             257                    12.3%            914.1         0.0          0.0%
3+ years to 4 years             102                     4.9%          1,285.9         0.0          0.0%
4+ years to 5 years              98                     4.7%          1,647.2         0.0          0.0%
5+ years                        178                     8.5%          3,161.4         2.3          2.4%
 Total                        2,086               100.0%                                $94.6   100.0%



             Table 3: Unresolved Audit Recommendations Past Due for Resolution
                                 as of September 30, 2008—
                          Dollar Amounts by Recommended Action
                                                                       Dollar Amounts of
                                                                          Unresolved
                                                                       Recommendations
                                                                       Beyond Required
                                                                        Resolution Date
                              Recommended Action                          (in millions)

            Monetary recommendations
              Questioned costs                                                  $29.7
              Funds put to better use                                            13.2
            Subtotal                                                            $42.9

            Unable to express an opinion (set aside)                            $51.7
              Total                                                             $94.6


 LACK OF REASONABLE ASSURANCE OF PROPER
 STEWARDSHIP OVER FEDERAL DOLLARS

 Because ACF did not resolve all audit recommendations in a timely manner, it did not have
 reasonable assurance that it was exercising proper stewardship over Federal dollars. It will be
 particularly important for ACF to have such assurance with respect to stewardship over


                                                       6
Recovery Act funds, which are critical to restoring our economy and are subject to heightened
scrutiny outside ACF.

RECOMMENDATIONS

We recommend that ACF:

      resolve all audit recommendations within the required 6-month audit resolution period
       and

      resolve the 2,086 outstanding audit recommendations that were past due as of
       September 30, 2008.

ADMINISTRATION FOR CHILDREN AND FAMILIES COMMENTS

In written comments on our draft report, ACF did not directly address our recommendations.
ACF disagreed with the number of audits listed in the stewardship report as of September 30,
2008, but agreed that monetary recommendations that were past due for resolution totaled the
$94.6 million listed in that stewardship report. ACF also provided updates on its resolution of
recommendations and stated that 2,107 recommendations were unresolved as of June 30, 2009.
ACF’s comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

We maintain that the stewardship report as of September 30, 2008, was accurate. The HHS
“Grants Administration Manual,” section 1-105-100(B), states that “. . . audit reports are cleared
in the Office of Audit’s [monitoring] system by submission and acceptance of Audit Clearance
Documents” (emphasis added). Upon acceptance of an audit clearance document, the OIG audit
resolution group updates its monitoring system and communicates the audit resolution
information to the HHS operating division via the monthly stewardship report.

We agree that ACF had 2,107 unresolved audit recommendations as of June 30, 2009—after our
audit period—but note that 976 of those recommendations were past due for resolution.
Moreover, ACF’s submission of required documentation after our audit period does not negate
the validity of our findings and recommendations as of September 30, 2008.




                                                7
APPENDIX
                                                                                                          Page 1 of3


APPENDIX: ADMINISTRATION FOR CHILDREN AND FAMILIES COMMENTS



         DEPARTMENT Of HEALTH & HUMAN SERVICES



                                                                 ADMINISTRA TION FOR CHILDREN AND FAMILIES
                                                                 Office 01 the A.ss~lant Secretary. Suite 600
                                                                 370 l'Enlanl Prom9llade. S.W.
                                                                 WashingtOll. D.C. 20447

         JUl 3 1 2609


        TO: 	         Daniel R. Levinson 

                      Inspector General 


        FROM:         David A.   Hans~ 

                      Acting Assista~;'fecr~~ 

                       for Children and Families 


        SUBJECT: 	    Office of Inspector General (OIG) Draft Report Titled, "Administration
                      for Children and Families Resolution of Audit Recommendations"
                      (A-07-09-031 18)


        Attached are comments oflhe Administration for Children and Families on the above­
        referenced report.

        Should you have questions or need additional information, please contact Oscar Tanner,
        Director, Office of Financial Services, at 202-401-5704.

        Attachment
                                                                                              Page 2 of3




The Administration for Children and Families (ACF) appreciates the opportunity to
comment on the Office oflnspector General (010) draft report.

DIG Recommendations

We ~ommend that ACF:

   • 	 resolve all audit recommendations within the required 6-month audit resolution
       period and

   • 	 resolve the 2,086 outstanding audit T«:ommendations that were past due as of
       September 30, 2008.

ACF Comments

As you know, ACF is the second largest grant awarding agency within the Department.
In FY 2008, ACF awarded over 7,000 grants in the sum 0[$46 billion. From FY 2006 10
FY 2008, over 4,000 grants were al the OMB Circular A-133 threshold of $500,000 or
more. Witb funds of this magnitude, ACF is highly cognizant orlhe importance of
safeguarding Federal funds.

The DIG draft report indicated that AC F had not resolved 2,086 audit I'«ommendations
that were past due for resolution as of September 2008. The Stewardship Report (the
Report) for that period included 735 audits that were assigned to ACF. ACF did not
concur with the number of audits listed in the Report, and AC F has been working with
OIG to remove those that should not have been listed.

For FY 2004 and earlier, ACF supplied a list of 88 audits that should have been removed,
which included 308 recommendations.

For FY 2005 to FY 2008, ACF resubmitted 247 DIG Official Clearance Documents
(OCDs) for audits that should have been closed and removed, whieh included 875
:ecor:':mendations. (These were at:dit:; ACF r.a:;! pmcessed and c!oscd :n ACF's sys:e::-:,
though DIG included them in the Report.)

As a result of these efforts, ACF concurs with the numbers in the Report as of June 30,
2009, which lists 455 audits with 2,107 recommendations.

To address the dollar amount of$94,637,532 listed in the Report, ACF concurs with this
amount.
                                                                                                Page 3 of3




The amount 0($42,865,178 represents 17 audits as shown on the Monetary
RecolJllllendations Opcn 6+ Months report as of September 30, 2008. Since that dale,
ACF has removed 9 audits and sustained $4,077,607, concurring with only a small
portion of the amount recommended. For the other 8 audits listed, ACF is either in the
negotiation phase seeking further collllSel on the proper resolution or in the clearance
phase securing approval and signature from the appropriate official.

The remaining amount, $51,772,354, represents 9 audits. Three have since been closed
with sustained dollars of$578,833; three are in the clearance process; and three are
between 13 to 17 years old (from 1992 through 1996) and there is no documentation
available for them.

ACF is diligently working to resolve al l audits. AC F's Office of Grants Management
(OOM) has a proactive procedure in place to ensure that audits are resolved timely.
OGM conducts a monthly granls officers' meeting to d iscuss issues and concerns, whieh
includes audit resolution. Standard audit determination letters are being developed to
ensure that audit resolution is applied consistently across AC F. ACF utilizes an
Enterprise Reportin g System, which is accessible to grants officers for generating an
online, real time report o f all outstanding audits. A monthly report of aud its received and
closed is sent out to the grants officers. Through coordination with OIG, the Report has
now been purged to include the correct number of audits ACF is being held acoounlllble
for. ACF will disseminate the Report every month to ACF 's grants officers.

ACF would like to address OIG's statement, "Because ACJ.' did not resolve all audit
recommendations in a timely manner, it did not have reasonable assurance that it was
exercising proper stewardship over Federal doUars. The prompt resolution of audit
recommendations will help ensure that Federal funds, including those additional funds
authorized by ARRA are effectively and efficiently used to carry out the activities for
which they were authorized."

ACF is at the forefront of A RRA and maintains a "hands-on" approach with ACF
grantccs. ACF is working with OIG and the Government Accountability Office 10
discuss internal controls already in place and those that ACF will be developing to ensure
that funds are being used properly and as authorized.

ACF recognizes its responsibility to oversee the large number of dollars ACF programs
are allocated. ACF has proven time and again that it can manage the money and the
programs.




                                              2
